FEDERAL DEFENDERS or SAN DIEGO, INC.

THE COMMUNITY DEFENDER ORGANIZATION FOR THE SOUTHERN DISTRICT OF CALIFORNIA.

March 16, 2021
Via electronic filing and first-class mail

Mr. Scott Harris

Clerk of Court

Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: No. 20-1043, United States v. Cano
Dear Mr. Harris:

I am counsel of record for the Respondent in this case, Miguel Angel Cano.
The government filed its petition for certiorari in this matter on January 29, 2021.
Mr. Cano’s response is currently due, after one extension, on March 31, 2021.
Pursuant to Rule 30.4 of the Rules of this Court, I am now writing to request an
additional extension of time, up to and including May 12, 2021, in which to file the
brief in opposition.

This extension is necessary because I am currently working on multiple, time-
sensitive filings in compassionate release cases stemming from the coronavirus
pandemic and because I am involved in several appellate matters with upcoming
briefing due dates. At the same time, this schedule will allow the case to be
conferenced before the end of this Term. We have conferred with the Solicitor
General's office, and I am authorized to say the government consents to this request.

Thank you for your attention to this matter.

C1 SAN DigGo OFFICE » 225 BROADWAY, SUITE 900 © SAN DIEGO, CA 92101 © T: 619.234.8467 » F: 619.687.2666
1 EL CENTRO OFFICE * 1699 W. MAIN STREET, SUITE D * EL CENTRO, CA 92243 « T: 760.335.3510 « F: 760.335.3610
Mr. Scott Harris
March 16, 2021
Page 2

cc: Counsel for Petitioner

Respectfully submitted,

Harini P. Raghupathi

Federal Defenders of San Diego, Inc.
225 Broadway Suite 900

San Diego, CA 92101

Counsel for Respondent, Miguel Angel
Cano
